OFFICE OF
INSPECTOR GENERAL      Report of Audit

                    FCA’s Telework Program

                            A-13-01

                         Auditor in Charge
                         Veronica McCain

                       Issued June 28, 2013




                     FARM CREDIT ADMINISTRATION
    Farm Credit Administration	                           Office of Inspector General
                                                          1501 Farm Credit Drive
                                                          McLean, Virginia 22102-5090




    June 28, 2013 
     
     
    The Honorable Jill Long Thompson, Board Chair and Chief Executive Officer 
    The Honorable Kenneth A. Spearman, Board Member 
    The Honorable Leland A. Strom, Board Member  
    Farm Credit Administration 
    1501 Farm Credit Drive 
    McLean, Virginia  22102‐5090 
       
    Dear Board Chair Long Thompson and FCA Board Members Spearman and Strom: 
     
    The Office of Inspector General completed an audit of the FCA’s Telework Program.  The 
    objective of this audit was to determine whether the FCA’s telework program was 
    administered effectively.   
     
    We determined the Agency has sufficiently established policy outlining telework eligibility 
    requirements, adopted the telework program into the continuity of operations plan, and 
    was submitting annual reports on the telework program to the Office of Personnel 
    Management.  Nevertheless, we identified areas where improvements can be made in 
    permanent telework agreement documentation, annual telework agreement renewals, 
    and telework training.   
     
    We would like to highlight the cooperative actions of the Office of Management Services.  
    Before issuance of the final report, the Office of Management Services took corrective 
    action to close the three agreed‐upon actions in this report.  
     
    We appreciate the courtesies and professionalism extended to OIG staff by Office of 
    Management Services personnel.  If you have any questions about this audit, I would be 
    pleased to meet with you at your convenience. 
     
    Respectfully, 


                                                
    Elizabeth M. Dean 
    Inspector General 
    Enclosure 
Office of Inspector General 





    FCA’s Telework Program
        Issued June 28, 2013



                               Audit Report 13-01

                                 Table of Contents

                              FCA’s Telework Program


Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

Telework Legislation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        2

Federal and Agency Telework Guidance. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       3

Audit Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             4

Employee Participation in Telework Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        6

Agency’s Telework Program Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        8

Telework Requirements Compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    9

Permanent Telework Agreement Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             10

Telework Agreement Renewals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                14

Telework Training Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            18





                                             Audit Report 13-01 FCA’s Telework Program

                                                          Issued June 28, 2013

                                        Background

   In recent years, the Federal Government has taken steps to increase
    opportunities for employees to telework.
   The term “telework” or “teleworking” refers to a flexible work arrangement under
    which an employee performs the duties and responsibilities from an approved
    worksite other than the location from which the employee would otherwise work.
   There are three types of telework:
     1.	   routine telework in which telework occurs as part of an ongoing regular schedule;

     2.	   situational telework that is approved on a case-by-case basis. Examples of situational
           telework include telework as a result of inclement weather, emergency closing, or ad-
           hoc situations; and

     3.    permanent telework arrangements, where employees perform most work at their
           residence, outside the local commuting area of their headquarters or field office.




                                     Audit Report 13-01 FCA’s Telework Program                      1
                                               Issued June 28, 2013
                             Telework Legislation

The Telework Enhancement Act of 2010 (the Act) outlines expectations for Federal
telework programs. The Act requires agencies with telework programs to:


   establish policies outlining eligibility requirements;

   designate a Telework Managing Officer;

   determine and notify all employees of their eligibility to telework;

   adopt telework into its Continuity of Operations Plan (COOP);

   require a written agreement between an agency manager and employee authorized to
    telework;

   ensure that an interactive training program is provided to eligible employees and their
    managers and the training is successfully completed by employees prior to entering into
    telework agreements; and

   report annually to the Office of Personnel Management (OPM) on the telework program.



                                  Audit Report 13-01 FCA’s Telework Program                   2
                                             Issued June 28, 2013
        Federal and Agency Telework Guidance

OPM Guidance
   As a result of the Act, the OPM established telework.gov. This website provides easy
   access to information about telework in the Federal Government. The website includes:

      the Guide to Telework in the Federal Government which provides best practices
       Federal agencies should use when implementing telework programs, and

      on-line training courses for employees and supervisors.

Agency Guidance
   The Office of Management Services (OMS), Administrative Policy Number 820, Flexiplace
   (Telecommuting), outlines the Agency’s telework program guidance. The guidance
   addresses:

        Continuity of Operations               Government and Employee Property Security
        Eligibility                            Worksite Inspections and Accident Reporting
        Program Participation                  Government and Employee Liability
        Work Schedule                          Administrative Responsibilities
        Time and Attendance                    Permanent Flexiplace Participation
        Ending Flexiplace Agreements

                                Audit Report 13-01 FCA’s Telework Program                    3
                                          Issued June 28, 2013
                          Audit Objective & Scope

   The audit objective was to determine whether the FCA’s telework program was
    administered effectively.
   The scope and methodology of the audit work included:
        interviews with the Telework Program Manager, and OMS staff;
        review of Federal and Agency guidance on telework programs;
        review of the Agency’s telework agreements and training files in FY 2012;
        review of the Agency’s continuity of operations plan that pertains to telework; and
        review of OPM’s Telework Data Call Report for FY 2012.

   OMS provided the following computer data:
        list of FCA employees as of February 13, 2013;
        list of FCA employees who teleworked during FY 2012;
        list of FCA employees who teleworked the two-week pay period ending 

         September 22, 2012.


   The data was sufficiently reliable for background audit purposes.

                                   Audit Report 13-01 FCA’s Telework Program
                                                                                               4
                                             Issued June 28, 2013
               Audit Objective and Scope (cont.)


   Internal Controls
    Management is responsible for developing and maintaining effective internal control over the
    telework program. We identified internal control weaknesses in telework agreement
    documentation and training certification. The OMS needs to incorporate more stringent control
    methods to ensure the telework program is appropriately administered.

   We conducted the audit in accordance with generally accepted government auditing
    standards. Those standards require that we plan and perform the audit to obtain sufficient
    appropriate evidence to provide a reasonable basis for our findings and conclusions based on
    our audit objectives. We believe the evidence obtained provides a reasonable basis for our
    findings and conclusions based on our audit objectives.

   We conducted fieldwork from February 2013 to May 2013 at the FCA Headquarters in
    McLean, Virginia. We provided a draft report to management on May 16, 2013, and held an
    exit conference on May 23, 2013. Where actions were presented to the Office of Inspector
    General that would resolve audit findings, the recommendation was changed to agreed-upon
    action.




                                Audit Report 13-01 FCA’s Telework Program                     5
                                          Issued June 28, 2013
Employee Participation in the Telework Program


 FCA has determined that all jobs are suitable for participation in the
  telework program.


 During FY 2012, all 285 employees were eligible to telework.



 Of the 285 eligible employees, 255 (89%) teleworked.




                          Audit Report 13-01 FCA’s Telework Program        6
                                    Issued June 28, 2013
  Employee Participation in the Telework Program (cont.)

 For the two-week pay period ending September 22, 2012, OMS generated a Time
   Recording System (TRS) report listing employees who teleworked.

 138 employees teleworked during this two-week pay period.

 The chart below shows the frequency employees teleworked for this pay period.



                     Telework Frequency

                                                             1 Day
                         31%
                                         47%

                                                             2 Days
                             22%
                                                             3 Days or More

                         Audit Report 13-01 FCA’s Telework Program 
              7
                                   Issued June 28 , 2013

        Agency’s Telework Program Requirements 


To participate in the telework program employees must complete the following forms and
obtain supervisor’s approval:

            telework request (FCA Form 469);

            telework agreement (FCA Form 470) and;

            telework worksite safety inspection (FCA Form 471).

 Prior to entering into a telework arrangement employees must also take telework
   training provided by the Agency.

 Employees are responsible for adhering to the telework agreement expectations and
   recording telework hours in the TRS.

 Supervisors are responsible for reviewing and approving telework agreements and
   ensuring employees continue to meet the telework program criteria.



                                 Audit Report 13-01 FCA’s Telework Program
                                           Issued June 28, 2013                     8
                     Telework Requirements Compliance

The Agency has sufficiently complied with the following telework requirements.
          Telework Requirements*                                                Agency’s Compliance
Establish a policy outlining eligibility                     OMS Policy Number, 820, Flexiplace (Telecommuting),
requirements.                                                outlines the Agency’s telework program eligibility.
     
Designate a Telework Manager Officer.                        The OMS Director is designated as the Agency’s
                                                             Telework Managing Officer.
Determine and notify all employees of their                  The Agency has determined all jobs are eligible for
eligibility to telework.                                     telework. Employees are notified by their supervisors
                                                             and as part of the New Employee Orientation Course.
Adopt telework into the COOP.                                The Agency’s COOP includes telework. The COOP
                                                             passed a Federal Emergency Management Agency
                                                             review and was successfully tested.
Submit annual reports on telework program                    Annual reports are submitted to OPM.
to OPM.                                                       The Agency needs to ensure TRS report
                                                                timeframes are precise. For 2012, the TRS report
                                                                was for a four-week versus two–week time period.
 * Telework requirements include the Telework Enhancement Act of 2010 and OPM’s Guide to Telework in the Federal Government.


                                             Audit Report 13-01 FCA’s Telework Program                                         9
                                                       Issued June 28, 2013
   Permanent Telework Agreement Documentation

Permanent telework agreements should include supporting documentation confirming
procedures were followed and decisions made were in the best interest of the Agency.

         Telework Requirements                                                          Agency Policy
  Permanent long-distant work arrangements                    The Agency’s telework guidance outlines the procedures
  raise various policy issues, including                      that should be followed when approving permanent telework
  reassignment of official worksite,                          arrangements.
  reimbursement for travel, and pay.
                                                               Permanent telework agreement documentation does not
                                                                adequately support procedures were followed.
  For permanent long-distance telework                        For permanent telework arrangements employees are
  arrangements, official worksite must be                     assigned to FCA headquarters or field offices as their official
  reassigned to the telework location.                        worksite.
  The employee receives locality pay for the                  Employees locality pay (if any) is based on the FCA’s
  telework worksite.                                          location, not the employee’s telework location (residence).*

                                                               Basis for locality pay decisions should be documented.


    * Under Section 5.11(c)2(A) of the Farm Credit Act of 1971, as amended, FCA is exempt from using Federal locality pay rates.

                                                                                                                                   10
                                                 Audit Report 13-01 FCA’s Telework Program
                                                           Issued June 28, 2013
  Permanent Telework Agreement Documentation (cont.)



 In certain situations, the Agency has approved permanent telework arrangements,
   where employees perform most work at their residence, outside the local
   commuting area of FCA headquarters or field office.

 The Agency’s telework guidance states the approving official will consider the
   factors listed below and receive concurrence from the Chief Human Capital Officer
   before approving or renewing a request.

        Employee’s unique skills and expertise.

        Employee’s ability to work independently.

        Budgetary cost to the Agency, increase or decrease to travel costs.

        FCA location assignment, this affects locality pay (if any).

 According to the Chief Human Capital Officer, these factors are discussed with the
   approving official, however, there is no documentation for the decisions.




                                   Audit Report 13-01 FCA’s Telework Program       11
                                             Issued June28, 2013
  Permanent Telework Agreement Documentation (cont.)


 We reviewed the seven permanent telework agreements in place during FY 2012 and
  found one instance where documentation, to some extent, addressed key factors.
       “As requested, the employee is providing a discussion of the benefits of this arrangement to
        the Agency. Employee is very tenured and believes that he is overall more productive
        working from home. On occasion, there is a travel savings when conducting on-site work.
        When filing vouchers, employee always uses a constructed cost analysis from the official
        duty station, therefore, at no time are any additional travel expenses incurred as a result of
        this flexiplace arrangement.”

 For other permanent telework agreements, employees’ reasons for requesting
  permanent telework arrangements included the following:
     “Increased morale, work life balance, more productive working environment, less commuting
      time.”
     “The field office does not have office space. Also, building retirement home in the area close
      to children and grandchildren.”
     “Was not able to sell home and it is not feasible to maintain separate residence.”
     “I have purchased a home where I am closer to my family.”


 Permanent telework agreements are unique situations. To ensure agreements are
  equitably assigned and are in the best interest of the Agency, agreements should
  include supporting documentation addressing key approval factors outlined in the
  Agency’s guidance.

                                   Audit Report 13-01 FCA’s Telework Program                      12
                                             Issued June 28, 2013
                        Agreed-Upon Action

Agreed-Upon Action 1:

    The Director of the Office of Management Services should require that
    permanent telework agreements include documentation to support
    decisions made. At a minimum, the documentation should address the key
    factors stated in the Agency’s telework guidance.

Agreed-Upon Action Resolution

    Before issuance of the final report, the Agency’s telework program
    guidance was updated to include the requirement that permanent telework
    agreements include documentation to support decisions made. The
    documentation will address key factors in the Agency’s telework guidance.




                          Audit Report 13-01 FCA’s Telework Program      13
                                    Issued June 28, 2013
              Telework Agreement Renewals 


The Agency has partially complied with the telework agreement requirements.


     Telework Requirements                       Agency’s Partial Compliance
Require written agreements be       Telework agreements were signed by 

signed by employees and managers. 
 employees and supervisor prior to
                                    teleworking.
Agreement should be renewed                    Annual reviews were not 

regularly. 
                                    consistently completed.




                          Audit Report 13-01 FCA’s Telework Program 
       14
                                    Issued June 28, 2013

           Telework Agreement Renewals (cont.) 



 The Act requires every telework participant to have a written agreement.

 OPM’s Telework Guidance states, “telework agreements are living
  documents that should be revisited by the manager and teleworker and
  resigned regularly, preferable at regular intervals as defined by the Agency’s
  telework policy.”

 The Agency’s policy states that permanent telework arrangements must be
  renewed annually.

 The policy does not specifically address routine or situational telework
  agreements. 





                            Audit Report 13-01 FCA’s Telework Program        15
                                      Issued June 28, 2013
            Telework Agreement Renewal (cont.)

 Permanent telework agreements are renewed annually.

 Routine and situational telework agreements were not consistently renewed
   annually.
      OMS staff performed annual reviews for their staff. Employees initialed and
       dated the original agreement to signify renewal.
      Annual renewals were not documented by other offices.

 Our   review of the telework agreement files disclosed the following:
        126 telework agreements were current.
        80 telework agreements were signed 1-2 years ago.
        27 telework agreements were signed 3-5 years ago.
        14 telework agreements were signed 6-10 years ago.
        15 telework agreements were signed over 11 years ago.

 Because telework agreements were outdated, we found:
    employees no longer worked for the approving official, and
    telework locations were inaccurate.

                               Audit Report 13-01 FCA’s Telework Program             16
                                         Issued June 28, 2013
                          Agreed-Upon Action


Agreed-Upon Action 2:

    The Director of the Office of Management Services should:

          include in the Agency’s telework program guidance the requirement to
            renew all telework agreements annually.

          develop an Agency-wide system documenting supervisors and employees
            are annually renewing telework agreements.

Agreed-Upon Action Resolution

    Before issuance of this final report, the Agency’s telework program guidance was
    updated to include the requirement to renew telework agreements annually. The
    telework program coordinator will monitor telework agreements to ensure annual
    reviews are being completed.

    The Agency will include in the FY 2014-2018 Information Resource Plan a project
    to develop a telework database that allows employees to complete and renew
    telework forms.
                                Audit Report 13-01 FCA’s Telework Program          17
                                          Issued June 28, 2013
                    Telework Training Program

   The Agency has partially complied with the training requirements.

       Telework Requirements                            Agency’s Partial Compliance
Ensure training is provided to eligible            The Agency has established a training
employees.                                         program using OPM’s telework training.

Training should be completed prior to               Ensure training is completed prior to
entering into telework agreements.                   employees entering into telework
                                                     agreements.




                                Audit Report 13-01 FCA’s Telework Program                    18
                                          Issued June 28, 2013
                Telework Training Program (cont.)


 The Act states that employees should successfully complete an interactive training
   program before entering into a written agreement to telework.


 As a result of the Act’s training requirement, the OPM established online telework
   training courses for employees and supervisors.
        The online courses are accessed through telework.gov. The courses provide a brief practical
         introduction to telework. After course completion a certificate can be printed.

 The Agency requires staff to complete OPM’s telework training and provide a copy of
   the certificate to the training office. The training officer is responsible for tracking and
   maintaining training certificates.


 Although training is required, the Agency has not developed an effective system to
   track completed training.



                                   Audit Report 13-01 FCA’s Telework Program
                                             Issued June 28, 2013                              19
               Telework Training Program (cont.)



 In reaction to the Telework Enhancement Act, in 2011 there was an effort to track
   employees who had taken telework training.


 The training officer tracked employees completion of training by highlighting their
   names on a March 2011 phone list.

 Telework training files showed the following for employees with current telework
   agreements:
      17% had certificates on file.
      71% had no training certificates on file, however, their names were highlighted on
       the phone list.
      12% had no supporting documentation on file. 





                                Audit Report 13-01 FCA’s Telework Program               20
                                          Issued June 28, 2013
                Telework Training Program (cont.)


   Since the 2011 review, as new employees are hired, the Agency has not developed
    an effective system to ensure employees receive training prior to entering into
    telework arrangements.
        Employees are eligible to telework as soon as they come onboard. Telework agreement
         paperwork is often signed and approved as part of the new employee paperwork process.
        Employees are usually informed of the telework training during the New Employee
         Orientation class, which typically takes place in June.
        Once employees are informed of the training, they are responsible for completing the
         training and forwarding their training certificate to the training office and their office
         secretary.
        Currently, there is no system in place to assist the training officer in tracking when new
         employees come onboard and whether employees are completing the training prior to
         telework agreements being approved.




                                     Audit Report 13-01 FCA’s Telework Program                        21
                                               Issued June 28, 2013
                        Agreed-Upon Action

Agreed-Upon Action 3:

   The Director of the Office of Management Services should develop a
   system to track if employees have completed telework training prior to
   telework agreements being approved.

Agreed-Upon Action Resolution

   Before issuance of this final report, the Agency’s request for telework
   form was updated requiring employees to certify they completed the
   telework training program prior to signing telework agreements.




                           Audit Report 13-01 FCA’s Telework Program         22
                                     Issued June 28, 2013
